4a
I

CACKLE

2311 Douglas Street L ega l Brie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

STANFORD VINA RANCH IRRIGATION COMPANY,
Petitioner,
Vv.

STATE OF CALIFORNIA, STATE WATER
RESOURCES CONTROL BOARD, STATE WATER
RESOURCES CONTROL BOARD MEMBERS
FELICIA MARCUS, DOREEN D’ADAMO,
FRANCES SPIVY-WEBER, STEVEN MOORE,
AND TAM DODUC: and DOES 1 THROUGH 20,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 22nd day of December, 2020, send
out from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
PAUL R. MINASIAN
Counsel of Record
JACKSON A. MINASIAN
MINASIAN, MEITH, SOARES,

SEXTON & COOPER, LLP

1681 Bird Street, P.O. Box 1679
Oroville, California 95965
Telephone (530) 533-2885
Fax (530) 533-0197
Email: pminasian@minasianlaw.com
Email: jminasian@minasianlaw.com
Counsel for Petitioner

Subscribed and sworn to before me this 22nd day of December. 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

y GENERAL NOTARY-State of Nebraska
RENEE J. GOSS
My Comm. Exp. September 5, 2023

  
   

Quedear-h, Oh le

Notary Public Affiant

 

 

40398
Attorneys representing the respondents are:

William Jenkins

Deputy Attorney General

State of California Department of Justice
455 Golden Gate Avenue

Suite 11000

San Francisco, CA 94102-7004

William. Jenkins@doj.ca.gov

Carolyn Nelson Rowan

Deputy Attorney General

State of California Department of Justice
1300 I Street

P.O. Box 944255

Sacramento, CA 94244-2550
Carolyn.Rowan@doj.ca.gov
